<html>
<title> - THE GOVERNMENT OF BELARUS: CRUSHING HUMAN RIGHTS AT HOME?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                      THE GOVERNMENT OF BELARUS: 
                     CRUSHING HUMAN RIGHTS AT HOME?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                AND THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 1, 2011

                               __________

                           Serial No. 112-56

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
65-497 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York

                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Daniel A. Russell, Deputy Assistant Secretary for Russia, 
  Ukraine, Moldova, and Belarus, Bureau of European and Eurasian 
  Affairs, U.S. Department of State..............................     9
Mr. David Kramer, executive director, Freedom House..............    23
Mr. Matt Rojansky, deputy director, Russia and Eurasia Program, 
  Carnegie Endowment for International Peace.....................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     6
Mr. Daniel A. Russell: Prepared statement........................    12
Mr. David Kramer: Prepared statement.............................    27
Mr. Matt Rojansky: Prepared statement............................    39

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    60
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Material submitted for the record.....    61

 
       THE GOVERNMENT OF BELARUS: CRUSHING HUMAN RIGHTS AT HOME?

                              ----------                              


                         FRIDAY, APRIL 1, 2011

          House of Representatives,        
     Subcommittee on Africa, Global Health,        
                           and Human Rights and    
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 1:50 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith [chairman of the Subcommittee on Africa, Global Health, 
and Human Rights] presiding.
    Mr. Smith. The subcommittees will come to order. And good 
afternoon and welcome to this joint hearing of the Africa, 
Global Health, and Human Rights Subcommittee and the Europe and 
Eurasia Subcommittee, which will explore the recent mockery of 
an election and a crackdown on democracy activists by the 
Lukashenka dictatorship in Belarus.
    We will also seek to answer questions about how we can most 
constructively hold the Lukashenka dictatorship accountable for 
its crimes and best assist the Belarusian people in their 
struggle for freedom, human rights and democracy.
    After the Presidential election of December 19, 2010, 
thousands of Belarusians peacefully protested the massive 
electoral fraud. The Lukashenka dictatorship sicced its 
security forces on the crowds, indiscriminately clubbing 
demonstrators, and detained over 700 people.
    In a manner reminiscent of the late Soviet era, the 
dictatorship has focused its ongoing crackdown on the 
democratic political opposition, independent media and civil 
society. The dictator's brutal campaign has been marked by the 
abuse of those jailed, by unfair trials and harsh sentences up 
to 4 years so far and by harassment and intimidation by the 
KGB, including interrogations, raids and other forms of 
pressure on families of opposition leaders, their lawyers, 
journalists and democratic activists.
    Recently I have had meetings with relatives and friends of 
the imprisoned Presidential candidates. They have told me 
heartbreaking stories about the mistreatment of their loved 
ones. And one of those who remains imprisoned is my personal 
friend, Anatoly Lebedko, a courageous and long-time leader of 
the democratic opposition.
    We have to keep in mind that the post-election crackdown is 
not over. In the last few days alone, a correspondent for 
Poland's largest daily newspaper was charged with ``insulting 
the President,'' a crime in Belarus. And the Belarusian KGB 
interrogated another journalist as well. On Tuesday, the 
dictatorship's courts sentenced a democratic activist to 3\1/2\ 
years of imprisonment for taking part in the December 19th 
protest. His was the eighth in a series of show trials.
    Just yesterday, the Belarusian Government forced the 
closure of the Minsk office of the Organization for Security 
and Cooperation in Europe despite many OSCE efforts to keep it 
open.
    As part of a Helsinki Commission visit to Minsk in June 
2009, I had the opportunity, along with my colleagues, to press 
Lukashenka directly on his dismal human rights record and 
denial of fundamental freedoms. While making clear our support 
for Belarus' independence, the delegation reiterated the 
longstanding message that the only way to improve relations 
between our two countries was and is for him to take steps to 
increase political freedom and respect human rights. We told 
Lukashenka that the ball was in his court. There were even 
small, tentative steps taken at that time in the right 
direction. But since December 19th, any hopes for change have 
been squashed.
    Aleksandr Lukashenka continues to turn a deaf ear to all 
criticism of his government. At a press conference after the 
election, Lukashenka said that Belarus will have no 
more<greek-l>, quote, deg. ``mindless democracy,'' clearly 
manifesting his sneering contempt for the Belarusian people, 
many of whose lives have been ruined and whose country he stole 
16 years ago, transforming it into a grotesque anomaly, what is 
often called Europe's last dictatorship.
    The United States and the EU have responded to the 
electoral fraud, violence and repression with strong 
condemnations, including from our President, and some 
additional punitive measures, at least for now. I would 
encourage both, especially the EU, to look for additional ways 
to hold Lukashenka to account. The scale of the post-election 
violence and the severity of the crackdown have far exceeded 
anything Lukashenka has done in the past. For the time being, 
the U.S. and the EU are not tempted to placate Lukashenka or to 
try to change his rule by rewarding him.
    This is one reason why we need legislation to address the 
human rights tragedy and other issues created by the Lukashenka 
dictatorship: To ensure steady focus and policy consistency. 
This will require continued and even strengthened economic and 
travel sanctions against the dictatorship and its senior 
leaders and security forces. All this until Lukashenka releases 
political prisoners and dramatically improves his government's 
human rights record. This is exactly what the Belarus Democracy 
and Human Rights Act of 2011, H.R. 515, which I introduced in 
January along with my good friend and colleague from Indiana, 
provides. Most of these issues were also successfully addressed 
in the Belarus Democracy Acts of 2004 and of 2006, both of 
which I authored and which were signed into law.
    The Belarus Democracy Act of 2004 brought the U.S. into the 
struggle for freedom in Belarus decisively on the side of the 
Belarusian people, who wish to live in a country where human 
rights are respected, democracy flourishes, and the rule of law 
is the norm. I remain convinced that the time will soon come 
when Belarus will be integrated with the family of democratic 
nations. We must continue to stand at their side as they 
continue to work their way out from under the oppressive yoke 
of Aleksandr Lukashenka. I would like to yield to my good 
friend and colleague, Mr. Payne, for any opening comments he 
might have.
    Mr. Payne. Thank you very much, Mr. Chairman. And let me 
also commend you for your longstanding leadership on this 
issue. I know that this is an important priority for you, 
especially in your role as co-chair of the Helsinki Commission, 
along with my good friend, Alcee Hastings, of Florida. Your 
leadership on this issue is exemplified, as you just mentioned, 
in your sponsorship of the original Belarus Democracy Act of 
2004, which garnered significant bipartisan support from our 
late chairman, Tom Lantos, Minority Whip Hoyer and Mr. Hastings 
of Florida. I know that bill is up for reauthorization this 
year. And given the troubling developments in the wake of the 
December 2010 elections, this is a good time to highlight those 
issues.
    As you know, this year, I have been particularly focused on 
elections and the democratic process, particularly in Africa, 
North Africa, Central Africa, the whole thrust of democracy is 
burning in that continent. And it is also very important that 
President Obama and Secretary Clinton have asserted time and 
time again that the United States must support the democratic 
aspirations of all people. It is troubling to me that like Cote 
d'Ivoire, a strong willed leader has chosen to suppress the 
will of the electorate and refuses to leave the office that he 
was recently defeated in.
    During Aleksandr Lukashenka's 16 years as President of 
Belarus, the government has tightened control over civil 
society. A recent softening of Belarus's foreign relations has 
let some activists inside the country, as well as foreign 
policy makers, to hope for a more reasonable regime. But as 
Human Rights Watch, Amnesty International, and others have 
reported, such expectations were dashed on December 19, 2010, 
the night of Belarus' Presidential elections, when as many as 
30,000 people took to the streets of the capital of Minsk to 
peacefully protest what they feared would be yet another stolen 
election.
    When Lukashenka's victory of 79.7 percent was declared, a 
few dozen mass people started breaking windows in the main 
government building which overlooks independence square. Things 
took an even more drastic turn when police and security forces 
rushed in and beat up everyone within reach. Most of them 
peaceful demonstrators, even going as far as to kick those who 
fell, chasing those and grabbing people, including innocent 
bystanders in adjacent streets. The Organization for Security 
and Cooperation in Europe (OSCE) observers determined the 
election, despite fairer campaigning practices than in previous 
elections, has failed to meet OSCE standards.
    In the wake of the December 19th post-election protests, 
Belarusian civil society activists and independent media face 
new government harassments and threats. Amnesty International 
has reported that Lukashenka is responsible for several 
political disappearances. And just last month, the Human Rights 
Watch issued a 31-page report documenting human rights 
violations that occurred on election night and in the wake of 
the election through February of this year.
    Again, the parallels to Cote d'Ivoire are remarkable. It is 
amazing what Lukashenka's regime has done to the people of 
Belarus in just a few short months. The HRW report refers to 
incidents of persecution of opposition candidates and 
activists, abuse of detainees, trials behind closed doors and 
raids on human rights organizations. The report further details 
allegations of extremely poor conditions in detention, denial 
of access to defense counsel and government pressure on lawyers 
representing those facing criminal charges related to post-
election protests.
    The international community has recognized Belarus' 
measures as intentionally silencing the legitimate citizens' 
grievances. Financial and travel sanctions against ruling 
officials have been leveled by the European Union and the 
United States in an attempt to force the Belarusian Government 
to cease its abuse of human rights violations.
    It is clear that Lukashenka and his regime must focus on 
restoring the human rights guaranteed by Belarus' own 
Constitution, as well as international law.
    Chairman Smith, Burton and Ranking Member Meeks, I 
appreciate this important hearing and hope that our Africa 
Subcommittee will also hold a hearing on the deplorable same 
type of rapidly deteriorating human rights conditions there as 
it is beginning to be in the midst of a civil war.
    Once again, Mr. Chairman, I commend you for your continued 
persistence on this area of human rights. And I commend you for 
it.
    One last item I would like to ask to be placed in the 
record. Belarus--it is called, ``Shattering Hopes, Post 
Election Crackdown in Belarus,'' by Human Rights Watch.
    Mr. Smith. Without objection, so ordered.
    And thank you for your eloquent statement. I would like to 
now yield to my good friend and colleague, Mr. Burton, the 
chairman of the Subcommittee on Europe and Eurasia.
    Mr. Burton. Thank you, Chairman Smith.
    I appreciate having this joint hearing with you, and I 
appreciate our witnesses being here today. We look forward to 
hearing your testimony. I am not going to make a long statement 
but there are a few things I would like to say. I think my 
colleagues have covered a great deal of this already. So I will 
submit much of my statement for the record.
    One other thing that bothers me in addition to what they 
are doing to their own people, is what they are doing in other 
areas. It appears as though this despot is also helping other 
criminal regimes. He has worked with Iran and has economic ties 
with him in violation of international sanctions, and our 
President announced this week penalties against Belarus for its 
business with Tehran. And this is a good start by President 
Obama, but I would like to see more action taken against this 
dictator and his regime.
    Finally, we are to meet shortly with the State Department 
officials in a closed hearing to hear whether the Belarusian 
regime is providing terrorists with arms and munitions in 
violations of international agreements. We have reports of 
Belarusian attack helicopters and heavy weapons being sent to 
the Ivory Coast to suppress democratic opposition. I just met 
with the Ivory Coast's Ambassador the other day and what he 
told me was extraordinary about the number of people being 
killed by a person who was defeated in the last election but 
will not relinquish power. And so we have got a severe problem 
there as well, and he is just adding to the problem by sending 
weapons and helicopters to them.
    Of course, these allegations have been retracted by the 
U.N. But they follow a disturbing pattern of aiding criminal 
regimes. Most recently, we have heard the much publicized 
United Nations accusation that Belarus was sending arms and 
munitions to Libya to supply the armies of Ghadafi, also in 
violation of international agreements. The Belarusian regime is 
the last remnant of the old Iron Curtain and Lukashenka is a 
thug who I would like to see go. I think all of us would.
    I am eager to hear how this administration is working to 
make this happen and to help provide freedom and democracy to 
the people of Belarus, and I want to thank our witnesses today 
for being here to testify and I want to thank the Department of 
State for their help and willingness to provide a witness and 
briefer for today's topic, especially the work of the State's 
legislative affairs team.
    And finally, I want to thank the staff of Chairman Ros-
Lehtinen for their help in arranging today's hearing and 
briefing, especially Mark Gage, the deputy staff director of 
the Foreign Affairs Committee, who I understand is going to 
retire today after three decades.
    Mark has done a great job, and I will tell you how 
difficult it is around here. When I first met him, he had a 
real bushy head of hair, and you can see what this kind of a 
job does to you.
    But anyway, Mark, thank you very much for everything you 
have done. Thanks for your help in solving the problems we had 
the other day.
    With that, I look forward to hearing from our witnesses. 
And I want to yield to my good friend, Mr. Meeks, the ranking 
Democrat--he should be a Republican--the ranking Democrat.
    [The prepared statement of Mr. Burton follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Meeks. Don't make that mistake.
    Thank you, Chairman Burton and Chairman Smith, for 
conducting or bringing this hearing up today. A very, very 
important hearing.
    Let me first say, laba diena, to my good friend, to Mr. 
Zingeris. And thank you for addressing this body today. And I 
am grateful for the opportunity to meet you. And I look forward 
to working with you together on transatlantic 
interparliamentary affairs. And I truly appreciate the 
Lithuanian Parliament's leadership in trying to support and 
bring change in Belarus. So it was great hearing from you this 
afternoon.
    And you have heard from my colleagues already that there 
had been at the beginning some thought, maybe some hope that 
something would change in Belarus, until December 19th. And so 
we can just sum it up like this: Lukashenka is a bad actor and 
Belarus under his leadership is a dangerous place for someone 
who embraces democratic principles or republican principles for 
that matter.
    I expect that we will hear from Mr. Russell about 
Lukashenka's autocratic, repressive regime, his tight control 
of the economy, his unyielding grip on social order and 
stranglehold on dissent. I expect Mr. Russell and my colleagues 
will say or recount how Lukashenka runs roughshod over 
democratic ideas and expressions, including civil and human 
rights to free speech and assembly, free and fair elections, 
independent judiciary and the rule of law.
    He has been called and remains Europe's last dictator, 
holding this dubious distinction for nearly a generation. What 
I hope to understand better after today's discussion is what we 
are doing about this situation, both to help Lukashenka's 
victims and to change the situation. It is clear to me that the 
situation must change and equally clear that the United States 
has a role in seeing that it does. Not only do we care as 
humanitarians about what happens in Belarus, we care from a 
global security standpoint.
    Anticipating some of your remarks, I want to emphasize my 
support for the multilateral approach that the administration 
has adopted. After all, what is going on in Belarus, is not 
just a problem for the United States; it is a problem for the 
community of democracies. But it is definitely our concern, 
too.
    While Belarus is in Western Europe's backyard, the 
neighborhood is shrinking. Our response to December's stolen 
election seems to have been well coordinated with the European 
Union and through the Organization for Security and Cooperation 
in Europe with a broader community as well. Our joint 
statements, joint demands for the release of political 
prisoners, joint insistence on respect for human rights and 
joint condemnation of Belarus' decision to close the OSCE 
mission were on target.
    I am concerned nevertheless about the effectiveness of our 
efforts. In the face of our diplomatic efforts, sanctions and 
assistance just this week, a Belarusian court sentenced one of 
the protesters, a 20-year-old, to 2\1/2\ years in prison. 
Several candidates who ran against Lukashenka remain in jail, 
and others have been sentenced to prison terms, and dozens of 
protesters and organizers remain political prisoners. It 
continues to astonish me that this can happen in Europe in 
2011.
    So I hope to hear thoughts on Belarus' future. I 
particularly would like to hear about springtime in Belarus. 
The parallel between the Governments of Libya and Belarus are 
extraordinary, with two notable exceptions. Lukashenka lacks 
Ghadafi's control of abundant oil resources, and fortunately, 
Belarus has been our partner in nuclear nonproliferation 
efforts. I would like your assessment of the Belarusian 
opposition and general public's willingness to endure the 
situation or the susceptibility to be swept up in the movement 
that has inspired young Arabs this spring.
    Finally, I want to commend your team on the ground, led by 
Mr. Michael Scanlan. They are working in a tough neighborhood, 
and we recognize how difficult the work of a handful of 
officers and local staff can be. And we thank you for all of 
the work and look forward to hearing your testimony.
    Mr. Smith. Thank you very much, Mr. Meeks.
    Mr. Marino for 1 minute if you would like.
    And Mrs. Schmidt?
    Thank you.
    Now, it is my privilege to welcome Dan Russell. Mr. Russell 
is Deputy Assistant Secretary in the Bureau of Europe and 
Eurasian Affairs, responsible for U.S. relations with Russia, 
Ukraine, Moldova, and Belarus and for international security 
and arms control issues in the Bureau of European and Eurasia 
Affairs.
    He has held many key State Department posts, including 
chief of staff to Under Secretary of State for Political 
Affairs<greek-l>, deg. William Burns<greek-l>, deg. from 2008 
to 2009; Deputy Chief of Mission in Moscow, in Russia of 
course, from 2005 to 2008; and Deputy Chief of Mission in 
Kazakhstan from 2000 to 2003. Deputy Assistant Secretary 
Russell speaks fluent Russian, Spanish and French, but will be 
testifying in English today.
    Mr. Russell.

STATEMENT OF MR. DANIEL A. RUSSELL, DEPUTY ASSISTANT SECRETARY 
 FOR RUSSIA, UKRAINE, MOLDOVA, AND BELARUS, BUREAU OF EUROPEAN 
         AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Russell. Thank you very much, Chairman Smith, Chairman 
Burton, members of the committee, for inviting me today to 
discuss the situation in Belarus.
    We share all of the concerns that everyone has expressed 
about the government's brutal crackdown in the aftermath of the 
flawed Presidential election. I think, simply put, the United 
States is pursuing a policy first to press the Government of 
Belarus to free its political prisoners and end the crackdown 
and, second, to support those inside Belarus seeking democracy. 
And we are doing this in concert with our European partners.
    Looking back to--my written statement has been submitted 
for the record, and maybe I will just summarize a few key 
points. And I think first, looking back to election day, to 
December 19th, in Belarus, it is fair to say the government did 
not conduct a transparent vote. The OSCE, which was able to 
provide a team to monitor the elections, concluded that the 
campaign period was characterized by an uneven playing field 
and a restrictive media environment. They reported a lack of 
independence, impartiality and transparency in the electoral 
process, and they characterized the vote count in over half of 
the precincts that they observed as bad or very bad.
    Now, nine Presidential candidates were allowed to run and 
to conduct limited campaign activities this time, which was an 
improvement from 2006, but you get the overall picture. Things 
looked pretty predictable during the day, but after the sun 
went down on December 19th, things changed. A large group, up 
to 30,000 people as some of the members have pointed out, came 
out in downtown Minsk to protest against the official claim of 
Mr. Lukashenka's landslide 80 percent victory.
    While we may never know all of the facts of what happened 
that night, one point is clear, the government's reaction to 
this largely peaceful demonstration was brutal. Some 700 
individuals were detained, including, amazingly, seven 
Presidential candidates. The beatings of demonstrators have 
clearly been documented. Most of the detainees were subject to 
10 to 15 days in jail. But six Presidential candidates, along 
with 30 other activists, now face charges that could lead to 
lengthy prison sentences. Trials have begun in February. Eight 
demonstrators have been convicted. No one has been acquitted.
    The detainees are clearly being held on political grounds, 
and the United States considers them political prisoners. Our 
response to this situation was clear in the media. Secretary 
Clinton and the White House have issued multiple statements 
beginning hours after the crackdown, condemning the violence 
and calling for the unconditional and immediate release of all 
detainees. We have done this together with the European Union's 
high representative, Cathy Ashton, echoing the same message.
    Unfortunately, the government not only moved to put the 
detainees on trial, it initiated a broader campaign to 
intimidate and weaken the political opposition and civil 
society. The offices and homes of activists and civil society 
representatives have been subject to police raids and searches.
    So, on January 31, we adopted the following steps against 
the government in Belarus and the individuals and entities we 
think have a role in this crackdown. First, we reimposed full 
sanctions against Belarus' largest petroleum and chemical 
conglomerate. Second, we announced the expansion of the list of 
Belarus officials subject to a travel ban to the United States. 
And third, we announced that the United States is working to 
impose additional financial sanctions against additional 
individuals who contributed to the crackdown. And we welcomed 
the European Union's concurrent decision to reimpose and expand 
their own travel restrictions and asset freeze.
    I want to make clear that this is one piece of our policy 
and our actions were not aimed at the people of Belarus. An 
integral part of our policy in the election aftermath has been 
to increase support for efforts to build a modern democratic 
society. On February 2nd, I took part in a donor's conference 
in Warsaw that was organized by the Polish Government, and I 
had the privilege to announce an additional $4 million to 
support the--$4 million to support democracy related programs 
in Belarus. This funding is in addition to the $11 million we 
provided for programs in this area in 2010. And following the 
crackdown, the United States has also begun providing legal and 
humanitarian assistance to those facing repression.
    Unfortunately, the Government of Belarus has chosen not to 
engage the international community. As Chairman Smith 
mentioned, the latest development has been its refusal to 
extend the mandate of the OSCE office in Minsk which closed on 
March 31. We believe that is a step backwards. We will continue 
to call on Belarus to meet its OSCE commitments, and we are 
working with like-minded OSCE members to pursue an independent 
investigation into the events of December 19th and their 
aftermath.
    Just a comment on the backdrop to our policy: I think if 
the Obama administration's response to the post-election 
crackdown should be viewed within the context of its decision 
to continue longstanding U.S. principled engagement with 
Belarus, engagement that is centered on advocacy for democracy 
and human rights, engagement that has enjoyed bipartisan 
support. We have made clear to senior Belarusian officials our 
bottom line that only progress on democracy and human rights 
lead to improvements in overall relations with the United 
States.
    Just a word on--yes and unfortunately, I mean, the 
government's failure to respect the human rights of its people 
and not uphold OSCE commitments is not a new development in 
Belarus. In the aftermath of the flawed elections in 2006, the 
United States had imposed sanctions.
    And I might just mention a word on sanctions. While 
economic and commercial ties between the United States and 
Belarus are limited, the Government of Belarus has reacted to 
targeted sanctions. In 2008, following the decision to increase 
U.S. sanctions, the government released all of its political 
prisoners. And in response, the United States temporarily 
licensed U.S. persons to do business with two subsidiaries of 
this petroleum and chemical conglomerate.
    I also should take a brief opportunity here to commend 
Representative Smith and other Members of Congress who helped 
to secure the release of American citizen Emanuel Zeltser in 
2009.
    Now, looking ahead, the recent actions of the Government of 
Belarus, to state the blindingly obvious, give us little cause 
for optimism in the near term. But at the same time, I think 
the aspirations of the people of Belarus for a brighter future 
do offer long-term hope. The country's youth particularly want 
a freer and more democratic country that is clearly part of a 
modern Europe. And we want to help them realize their dreams 
for that future.
    And as we continue to calibrate our response to the policy 
of repression that we see unfolding in Minsk, I think the 
elements of our policy response are pretty clear: One, we are 
going to continue to implement targeted sanctions to press the 
Government of Belarus to change its course. Our goal remains 
the immediate and unconditional release of political prisoners, 
and in that regard, additional sanctions and a further 
expansion of the assets freeze and travel ban against 
Belarusian officials are among the options we should consider. 
Second, we are going to continue to expand support for those in 
Belarus seeking a more democratic modern country that respects 
the rights, democratic actors in Belarus represent the future 
of that country, and they deserve our support. And third, we 
are going to continue to act in concert with the European Union 
and our other European partners in providing support for the 
people of Belarus. The European Union is also considering the 
imposition of targeted economic sanctions against Belarus 
firms, and we hope that it will join us in this approach.
    Lastly, I want to say that we have no illusions that 
influencing a movement toward democracy and greater respect for 
human rights in Belarus will be easy or quick. But we believe 
the United States should encourage and support the people of 
Belarus' desire for freedom and democracy. It is both in our 
national interests and it is the right thing to do. Thank you 
very much.
    [The prepared statement of Mr. Russell follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Secretary Russell, thank you very much for your 
testimony but, more importantly, for the work you are doing to 
help the oppressed Belarusians, especially those that are in 
prison.
    Thankfully, this is a totally bipartisan effort, and you 
have great support here in the House and I know in the Senate 
on both sides of the aisle. So I do commend you personally and 
the Department for being so clear and unambiguous about our 
position on Lukashenka and the Belarus dissidents.
    Let me ask you--and I limit myself and I think we, because 
of time and votes, all of us, to 5 minutes, and I will be very 
brief. The new media law, if you could comment on that. We know 
that they borrowed handsomely from the Chinese Government, and 
they are experts on the use or misuse of the Internet to find, 
apprehend, and arrest those who are dissidents. The new media 
are not working well because they are trying to subvert them.
    What is Russia doing? Is Moscow being helpful? If you could 
speak also to what we could be doing further and especially 
what our allies and the European Union could be doing. 
Yesterday, I understand, there was a very contentious meeting 
at the OSCE and the Canadians took the lead with a very strong 
statement. Should the Moscow Mechanism be invoked? And finally, 
with regards to Radio Free Europe/Radio Liberty, have they 
cranked up further their efforts to get the message to the 
people of Belarus about what their dictator is doing to the 
best and the bravest and the finest in Belarus?
    Mr. Russell. Well, thank you very much.
    On the new media law, obviously, we are concerned, as are 
you, about any attempts to restrict the Internet. And clearly, 
the registration provisions that are in this law are an attempt 
to do exactly that, although I must say personally I think it 
is a fool's errand to try to restrict the Internet. It hasn't 
really worked anywhere, and I don't think it is necessarily 
going to stifle people with creativity in Belarus. But 
nonetheless, it is not a good step and not one we welcome.
    The role of Russia is a complicated question. After the 
crackdown, we saw the Russian Government join with others and 
the Council of Europe to call for the release of political 
prisoners. At the same time, Russia and Belarus have a 
longstanding economic relationship, which involves subsidies 
for Belarus, particularly in the energy sector. And we have 
seen the Prime Minister of Russia make a recent visit there.
    We are going to continue to work with Russia. I don't think 
that anybody wants to let Mr. Lukashenka play a zero-sum game 
where he can play Russia off against the West because that is 
simply not going to work. In fact, I would argue that he is 
more isolated than he has ever been. It is not only the 
European Union and the United States. The Ukraine has issued a 
statement about the disproportionate use of force. And like I 
said, with the Russians, we have seen some concern about what 
is going on there as well. But clearly, this is going to be a 
work in progress.
    On the OSCE and the Moscow Mechanism, the United States is 
working to support the Moscow Mechanism. This is something I 
talked to our Ambassador to the OSCE today about this. And this 
is something we are going to push next week. Whether we succeed 
or fail, we are going to be committed to try to get our friends 
with us in the OSCE to support an independent investigation 
into the election and the aftermath.
    And finally, on broadcasting, we and several of our 
European allies have longstanding commitments to support 
broadcasting from outside into Belarus to try to help inform 
the Belarusian people and help them make informed decisions 
about their future. I was struck by polling results that showed 
that over half of Belarusians had never met anybody from the 
European Union and over 70 percent of them had never travelled 
to a European Union country. And I think that speaks volumes 
about why we and the Europeans both need to do more to try to 
bring them into the more modern world in which we all live. 
Thank you.
    Mr. Smith. Secretary Russell, because we have a vote and 
some of our members have commitments they have to keep, and the 
vote will make it so they are precluded from coming back. I 
thought we could ask all of our members to ask questions and, 
as best you can, start the answers, and then those of us who 
can come back will hear the remainder of those answers.
    Mr. Payne.
    Mr. Payne. Thank you. I will be very brief.
    Recently, in our committee, we have heard discussion about 
foreign assistance. Many of the new members have questions 
about that, and they talk about corruption that was discussed 
in a discussion on Africa. But I would like to also ask you a 
question about Transparency International focuses on corruption 
and ranks Belarus, which of course is in Europe, as 127th in 
corruption. So I would like to know, one, how do we assure that 
any aid funding does not inadvertently end up in the hands of 
corrupt officials? Secondly, do we have any indications that 
corrupt Belarusian officials abuse the U.S. financial system 
through money laundering and so forth? And just finally, what 
efforts can the U.S. undertake to help combat the corruption in 
Belarus? Thank you.
    Mr. Smith. Chairman Burton.
    Mr. Burton. My main concern--I mean, my colleagues on the 
Human Rights Subcommittee, they are covering their concerns 
very well.
    But I want to know what is going on as far as Belarus being 
a conduit for weapons going into other countries like Libya, 
the Ivory Coast and so forth. One of the big problems we have 
got right now is the whole northern tier of Africa is in flux. 
The Persian Gulf, the Middle East; it is all kind of up in the 
air, and we are very concerned that some of the more radical 
elements aren't fomenting more revolution and more upheavals 
that could lead to severe problems for us.
    We get over 30 percent of our energy from that part of the 
world. And if there is a real conflagration that spreads 
throughout the region, we could have real problems. So, in a 
nutshell--I don't want to hold everybody up--in a nutshell, if 
you could tell us, how extensive are the operations of Belarus 
and their government in getting weapons to these other 
countries?
    Mr. Smith. Ranking Member Meeks.
    Mr. Meeks. Thank you, sir.
    My question will go in this regard: What should we be 
concerned or should we be concerned about plans for 
construction of a nuclear power plant in Belarus? And given the 
current state of Belarus' economy, do we assume that this will 
be a Russian financed program? And is it also reasonable to 
assume that a new nuclear plant would supply other European 
countries?
    And finally, what impact if any should the U.S. response be 
to Lukashenka's crackdown have on our cooperation with Belarus 
on nuclear issues?
    Mr. Russell. Thanks.
    First, Mr. Payne, on foreign assistance, we give no direct 
foreign assistance to the Government of Belarus. Most of our 
aid is in democracy programs, and in the $16 million we gave in 
2010, $11 million of that went to the nongovernmental sector 
and the rest of it went to programs working on issues such as 
trafficking in persons and tuberculosis, and it wasn't funneled 
directly to the Government of Belarus but to organizations that 
we trust, like the World Health Organization. So this is one 
country where I can say we probably don't have that concern.
    Transparency International, frankly, if they had more 
information on what is going on inside Belarus, I am not sure 
they would be as high as 127th on the corruption list. On the 
abuse of the U.S. financial system, we have had an assets 
freeze in place against some of--President Lukashenka and some 
of his top aides for several years now. I cannot verify this, 
but I suspect there is very little money from senior people at 
that level in the United States.
    On arms sales, this has been a longstanding concern of the 
United States. Belarus continues to rank somewhere between 25th 
and 20th in arms sales, and clearly, that is an issue we need 
to continue to follow. We have sanctioned individual entities 
in Belarus for arms transfers in the past, and we continue to 
have sanctions available to us should other information become 
available. And certainly, in the second part of this, we are 
going to discuss this subject in a little more detail.
    Mr. Meeks, on the nuclear power plant project, Belarus has 
had an interest in building a nuclear power plant for some 
time. The United States supports the right of countries to have 
civil nuclear power, but we have urged in Belarus that any 
power plant be constructed in a manner that meets international 
standards and meet--and be it operated in a way that meets 
international safeguards. And that is a bottom line for us. And 
clearly, Belarus also needs to take into account the concerns 
of its neighbors and to meet its commitments under various 
international conventions on this.
    On the supply to other countries, it depends, obviously, on 
the size of the power plant. There are now power plant projects 
talked about. There are four in Finland; one in Lithuania; 
others in Poland and the Czech Republic. I don't have a crystal 
ball. I cannot tell you after the Japanese nuclear disaster how 
many of these are actually going to go or whether there will 
still be public support for them. But I think, obviously, these 
need to be done on some sort of commercial basis.
    What we want in Belarus and we have supported, we want to 
see a project that is done on a competitive basis and one that 
meets international standards. When Prime Minister Putin 
visited Minsk earlier this month, the Russians again signed 
some sort of deal on building a nuclear power plant in Belarus. 
The financing of that project is unclear at this point, and it 
is something we are going to continue to watch.
    Mr. Smith. Just in the very few minutes remaining, 
Secretary Russell, let me just ask you, has the Human Rights 
Council or has our representative to the Human Rights Council 
raised the issue of Belarus?
    Secondly, I know we are not signatories--or we are 
signatories, but we have not ratified the ICC. But is there any 
sense that either the Europeans or with our support, a referral 
might be made to the prosecutor's office for crimes committed 
by the Lukashenka regime?
    And thirdly, with regard to the political prisoners, had 
they been visited by the ICRC? Are there conditions that one 
might describe as degrading, inhumane and certainly torture? 
And if so, has the Convention Against Torture and the panel of 
experts initiated any kind of proceedings to hold Lukashenka to 
account under the torture convention?
    Mr. Russell. I honestly don't know whether we have raised 
this at the Human Rights Council in the current session. I will 
come back to you with an answer on that.
    Mr. Smith. If not, if you could ask them to do so. Our 
representative.
    Mr. Russell. Yes. We support this. We have raised this at 
every international forum that it has been appropriate. The 
ICC, I am not aware of any action that has been taken to refer 
this, and I am not a lawyer. I don't know enough about the 
grounds for that.
    On ICRC access, the United States and the other key members 
of the ICRC have clearly asked the ICRC quietly to get 
involved. Obviously, they don't report their findings, but I 
think you are right that it is important that they have access. 
The Convention Against Torture, one of the Presidential 
candidates who has now sought political asylum in the Czech 
Republic asserted that torture had taken place. So this is 
obviously an issue we need to look at.
    Mr. Smith. Thank you, Mr. Secretary. I thank you very much 
for your testimony and your strong concern. The subcommittee 
will go into a brief recess. Thank you very much.
    [Recess.]
    Mr. Smith. The subcommittees will resume their sitting. And 
I apologize deeply to our witnesses, but believe me, your 
testimonies will be disseminated, not just in the record but to 
all the members of both subcommittees and the full committee, 
because we do need to hear from you.
    We did have a second panel that was supposed to testify on 
the arms issues, arms transfer issues, and that had to become 
classified. So I do hope that both of our distinguished 
witnesses understand, and I apologize for the inconvenience.
    We will now hear from David Kramer who is executive 
director of Freedom House, one of Washington's most respected 
voices on freedom and human rights issues.
    Mr. Kramer has a distinguished NGO, academic, and 
government career. In government, he has served as assistant 
secretary of state for Democracy, Human Rights and Labor from 
March 2008 to January 2009. In that capacity, in addition to 
everything else he has done, he also then sat on the Helsinki 
Commission. We greatly appreciated his insights and help with 
regards to that Commission. He was also Deputy Assistant 
Secretary of State for European and Eurasia Affairs, 
responsible for Russia, Ukraine, Moldova and Belarus and was 
closely involved in formulating and implementing U.S. policy 
toward Belarus.
    Finally, we will hear from Matthew Rojansky, the deputy 
director of the Russia and Eurasia Program for the Carnegie 
Endowment. An expert on U.S. and Russian national security and 
nuclear weapons policies, his work focuses on relations among 
the United States, NATO and the states of the former Soviet 
Union from 2007 to 2010. He served as executive director of the 
Partnership for a Secure America, which sought to rebuild 
bipartisan dialogue on U.S. national security and foreign 
policy challenges.
    Secretary Kramer, please.

  STATEMENT OF MR. DAVID KRAMER, EXECUTIVE DIRECTOR, FREEDOM 
                             HOUSE

    Mr. Kramer. Hello, Mr. Chairman. Thank you very much.
    It is a pleasure again to appear before you. And thank you 
very much for doing this hearing. In fact, it is critically 
important that you and the subcommittees are holding a hearing 
on Belarus.
    Given that the world's attention is understandably riveted 
on events in North Africa and the Middle East and yet we still 
have an enormous challenge in Europe itself, in Belarus and, as 
you have rightly described him, in Aleksandr Lukashenka as the 
last dictator in Europe.
    I also do want to acknowledge Dan Russell, Larry Silverman, 
and Mike Scanlan, his staff and Embassy Minsk, what is left of 
it, and Ian Kelly, who is the OSCE Ambassador in Vienna, for 
the work all of them have been doing to keep the focus on 
Belarus and U.S. policy.
    It has already been described at length the kind of 
situation we are dealing with in Belarus; where there are 
dozens of people still in jail held as political prisoners, 
where torture is common by Lukashenka and his KGB goons. I 
think it is very important to understand that this is a serious 
threat to the people of Belarus, to Europe, to the region as a 
whole and, in fact, globally. And it is a vital issue for the 
United States to stand firm and on principle in dealing with 
this challenge that we all face.
    Talk about Lukashenka sometimes gets carried away, Mr. 
Chairman, when people say he is this all powerful leader. Let 
us remember that there were credible polls that showed that on 
December 19th of last year, he got less than 50 percent of the 
vote and was fearful that he would have to run in a second 
round of the election. What that suggests is that the majority 
of the people who turned out in that election voted against 
Aleksandr Lukashenka, and that means that his support is 
slipping and eroding. And I think that alone is something that 
scares him and forces him to lash out against the opposition so 
that he doesn't risk losing total control.
    Let's also remember that there were tens of thousands of 
people who turned out in downtown Minsk in Independence Square, 
in unprecedented numbers, that also suggest that many people in 
Belarus have had enough of Aleksandr Lukashenka and want to see 
a change. Those things I think are very noteworthy and 
something we should not overlook.
    What should we do about the situation? I would argue for a 
two-prong approach. The first is dealing with assistance, in 
standing with the people of Belarus and showing solidarity. It 
is critical that the U.S. and EU speak with one voice and that 
we make it clear that Aleksandr Lukashenka is the enemy here, 
he is the threat, and that we stand for freedom and democracy. 
They are the common cause in our goals in Belarus.
    Yesterday's OSCE statement that was issued condemning 
Lukashenka's refusal to allow the OSCE mission to remain open 
in Minsk was a good sign of international solidarity on this, 
and we need to see more indications of this.
    It is important for Europeans in particular to reduce the 
fees for visas, if not in fact waive the fees entirely, so that 
more Belarusians can travel and, if necessary, relocate to 
European countries.
    We need to expand exchange programs. We need to help 
students who have been expelled from universities because they 
have been accused of exercising freedom of assembly and speech. 
We need to help the families of those who are being held in 
jail, help them with lawyer fees, medical bills, with food 
assistance, all kinds of desperately needed assistance.
    We need to help organizations like Charter 97 as well as 
the Belarus Free Theater, the performers of which have not been 
allowed to return home, and they are living on fumes. They need 
vital financial assistance.
    We need to get more media into Belarus so that the people 
of Belarus understand that Europe and the United States stand 
with them, that the problem we have is with the leader of 
Belarus, not with the population of Belarus.
    We need to resume material support for the opposition. 
Neutrality on this issue or an unwillingness to provide such 
support, frankly, in the face of a threat like Lukashenka is an 
enemy of freedom. We need to lift the restrictions that have 
been put in place by USAID.
    We need to meet, as you have, Mr. Chairman, with members of 
the opposition, with activists, with families of those in 
detention.
    And I want to thank you very much in particular for taking 
time to meet with the delegation that Freedom House, IRI, NDI, 
and the German Marshall Fund brought to the United States 
several weeks ago. It is extremely important that you and other 
members meet with these families to hear firsthand the heart-
wrenching stories, so we can put a human face with the 
suffering the people of Belarus are enduring.
    Again, thanks for your efforts on the legislation dealing 
with Belarus, the bill on Belarus, and your leadership on that 
in 2004 and 2006; it was vitally important. When I was in the 
government, that legislation was a critical tool for us to deal 
with this dangerous threat. That is on the support, assistance, 
and solidarity side.
    On dealing with the regime, we need to ratchet up the 
pressure and really go after Lukashenka and those around him. 
Sanctioning state-owned enterprises, in my view, is the way to 
free the political prisoners. It worked in 2007 and 2008 when 
the United States in November, 2007, sanctioned Belneftekhim. 
Two months later, the release of the political prisoners 
started.
    The U.S. has reimposed the sanctions that eased after all 
the prisoners were released in 2008. It has reimposed those on 
Belneftekhim, but it is not enough. We need to go after the 
Belarus potash firm. We need to go after other state-owned 
enterprises. This is where Lukashenka keeps his money. This is 
where he benefits personally through massive corruption, and it 
is where the Europeans need to really step up to the plate. 
Here the Europeans are divided, not only from us on this issue 
but divided among themselves; and they need to get behind 
sanctions against state-owned enterprises.
    We should not have meetings with senior officials of the 
Lukashenka regime. We did not recognize the election results; 
and if we don't recognize Lukashenka as President, we should 
not be meeting with his representatives. We should add Foreign 
Minister Martynov to the visa banned list so Lukashenka doesn't 
have a stooge running around Europe and the United States 
peddling his lies.
    We should end International Monetary Fund and European Bank 
for Reconstruction and Development support for Belarus, 
particularly with Belarus' hard currency reserves dwindling and 
facing a devaluation, which apparently it has done by 20 
percent with even a possible default. The last thing we should 
be doing is providing international loans that would bail out 
Lukashenka and throw him a lifeline.
    I am in favor of suspending Belarus from the European 
Union's Eastern Partnership Initiative, but at a minimum, if 
the Europeans do not do that, instead of inviting 
representatives of the Lukashenka regime, they should invite 
representatives of the opposition in civil society to sit in 
those seats when they have a summit later this year.
    We should strongly urge the International Hockey Federation 
to relocate its world championship which Belarus is scheduled 
to host in 2014. Aleksandr Lukashenka is a big hockey fan. He 
is a player himself. This, if nothing else, might get his 
attention if we threaten to take this prize away from him.
    We should reject engagement with the regime. Engagement was 
tried from the fall of 2008 right up until December 19th. 
Engagement with this regime failed. Engagement with this regime 
should not be resumed.
    Aleksandr Lukashenka is not serious about engagement with 
the West. He is brilliant at playing the West and Russia off of 
each other, threatening to go to one if the other increases the 
pressure. We should not fall for this game once again.
    We should understand that pressure is what gets 
Lukashenka's attention. That is the way to get these people out 
of jail. That is the way to end their suffering.
    Also, I would just say, in response to your question to Dan 
Russell about the ICC, we should begin a serious and 
comprehensive effort to document the many crimes that 
Lukashenka has committed, so that when and if there is a 
process in place to bring Lukashenka to justice, we already 
have much of the documentation in place to move forward.
    Belarus, Mr. Chairman, just to conclude, is a real test for 
the West, with ramifications for the region and, frankly, for 
the whole globe. Left unchallenged, Lukashenka becomes a model 
for other authoritarian leaders in the region and in the world, 
a number of whom, as we have already heard and based on 
questions from Chairman Burton, are clients of his for weapon 
sales. And so if we don't respond to this challenge, the West 
will be exposed as an impotent force, unable to deal with 
problems in its own neighborhood.
    We saw tens of thousands of people turn out in the streets 
to protest Lukashenka's rule, and we saw a fraudulent election 
where official results suggested that he got 80 percent, when 
in fact most results would suggest he got less than 50 percent. 
Many more people voted against him than for him in that 
election.
    Our support should be for those tens of thousands of people 
who turned out in downtown Minsk, brave people who risked their 
lives, risked injury to speak their minds and exercise their 
right to freedom of assembly and freedom of expression. They 
are the future of Belarus, and they need our support and 
solidarity now.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kramer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Secretary Kramer, thank you very much for that 
very comprehensive prescription of what we need to be doing. I 
am taking notes, and I know others will as well. I do thank you 
for that and for your leadership in the past as well.
    Mr. Rojansky.

  STATEMENT OF MR. MATT ROJANSKY, DEPUTY DIRECTOR, RUSSIA AND 
  EURASIA PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Rojansky. Thank you very much, Mr. Chairman.
    As a member of last December's OSCE election observer 
mission in Belarus I am particularly appreciative of this 
opportunity to share my assessment of what has taken place 
there and how I believe we need to move forward.
    Of course, you yourself, Mr. Chairman, Mr. Payne, Secretary 
Russell, and others I think have provided an ample and accurate 
summary of the recent repressions. I am also in full agreement 
with Mr. Kramer that a reversal of these measures should be a 
top U.S. policy priority at this point.
    What I would like to focus on, though, is what I believe is 
ultimately our core policy challenge. How can we in the West 
help to create the conditions for future positive change?
    In light of the ongoing abuses by the Lukashenka regime, 
Western governments are understandably compelled to adopt a 
strong and a moral stance, severing public engagement with 
Minsk, withdrawing previously offered incentives, and imposing 
new penalties. An example, of course, is what you heard Mr. 
Kramer say about not meeting with Mr. Martynov, the Foreign 
Minister.
    These sanctions I believe, as they have been reinforced and 
reinstated, should remain in force until Minsk acts clearly to 
reverse the most egregious consequences of the crackdown. We 
and our European allies should assist those still suffering 
under government repression, including specifically identifying 
and imposing new penalties on their persecutors as individuals, 
supporting victims' legal defense, and publicizing their 
harrowing stories. And some of that has been done already.
    The present sanctions as they have been reinforced should 
also continue until the OSCE can return to Belarus with an 
explicit mandate to investigate the violence linked to the 
elections. And here I would agree with the suggestion of 
implementing the Moscow Mechanism.
    That said, an approach in my view that is centered solely 
on coercion and punishment is unlikely to help the people of 
Belarus. Some recognition first is due for recent responsible 
behavior by Minsk, for example, the commitment to eliminate all 
highly enriched uranium by the 2012 nuclear summit; compliance 
with terms of the IMF and World Bank loans; and the announced 
reduction of regulatory burdens on small- and medium-sized 
businesses. Because these in fact enable greater economic 
independence from Lukashenka and the state for the Belarusian 
people.
    To prevent imposing de facto isolation on the people of 
Belarus, Western governments must also sustain and enhance 
their efforts to engage with ordinary citizens. Our goal should 
be to build the skills and capacity of Belarusians to take 
responsibility for their own political future but not to 
catalyze regime change when it is not yet ripe domestically.
    As a friend involved in civil society working in Belarus 
told me, the real long-term challenge is social and political 
change, not regime change. The former gives us Poland, the 
latter gives us Ukraine, by which I mean an incomplete and 
possibly unstable transition to democracy.
    Western governments should make small- and medium-sized 
grants to grassroots organizations, especially those that are 
outside of Minsk and those with nonpolitical missions. Examples 
would include groups working to treat social problems like drug 
and alcohol abuse, domestic violence, groups that track reforms 
and monitor corruption and network-building NGOs.
    Western aid should include training on the Internet and 
social networking tools, basic communication strategy, and 
community advocacy. Independent media, above all, that cover 
Belarus need better training, and they need the means to reach 
audiences throughout the country.
    In the near term, we must remain firm and uncompromising in 
the demand that Lukashenka release the political prisoners and 
stop the repression. However, we should also have an eye to the 
upcoming 2012 parliamentary elections. These elections, it has 
been announced by the Belarusians, will once again have OSCE 
observers invited.
    In my view, the best mechanism to prevent another blatantly 
undemocratic electoral process is to push hard and 
uncompromisingly now for an electoral commission which has 
independent membership and to train and equip Belarusians to 
serve as domestic election observers. This, by the way, is a 
role that was authorized under the 2010 election law as it was 
amended at the urging of the OSCE, but I personally did not see 
domestic observers in polling stations. They lacked the 
capacity and the training.
    The U.S. and the European Union have done an admirable job 
of coordinating their official response, particularly in terms 
of official statements. Now I believe that, thanks to improved 
dialogue among Washington, Brussels, and Moscow, we can seek 
coordination with Russia as well. We cannot allow Lukashenka 
alone to define the terms of Belarus' engagement with East and 
West.
    Russia and the West have different interests with respect 
to Belarus, surely, but the costs of business as usual are 
shared and the danger is shared if Belarus' economic 
vulnerability and political isolation lead to more upheaval, 
violence, and potentially bloodshed. For Russia, coordination 
with the West does not need to undermine historically close 
ties with Belarus.
    Mr. Chairman, there is no simple policy prescription to 
change the nature of the Belarusian regime without exacting 
painful costs for the country's people. But there are some 
short- and long-term steps that can enable Belarusians 
themselves to define a future in which they enjoy security and 
prosperity with close ties to partners throughout the Euro-
Atlantic region. I believe these measures are in our national 
interest and in the interest of the people of Belarus.
    Thank you.
    [The prepared statement of Mr. Rojansky follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Rojansky, for your 
testimony and for being a part of reform for so long there and 
elsewhere. I just have a few questions.
    I would like to ask, are we coordinating our democracy 
assistance well enough with the European Union? How is USAID 
getting it wrong, or is it getting it right with regards to 
that assistance?
    And with regard to the additional sanctions, Secretary 
Kramer, that you mentioned, do you believe that is something 
that is seriously being contemplated or have we done enough and 
closed the door and we are now looking somewhere else and 
waiting to see if those sanctions already articulated are going 
to have any kind of bite?
    Mr. Kramer. Mr. Chairman, I think on the coordination 
issue, there was a donors' conference that the Poles hosted in 
Warsaw in early February that was a good opportunity for the 
Americans and Europeans to compare notes to coordinate, avoid 
duplication, and make sure that there is sufficient coverage.
    My impression is that there is good coordination between 
Europeans and the United States on these issues. The assistance 
people at the State Department are in constant contact with 
their European colleagues. I don't really have any criticism of 
the coordination when it comes to assistance programs.
    On USAID's point, USAID, with the operations for Belarus 
that are run out of Embassy Kiev, has been resistant to go 
ahead with material support for opposition. They feel that that 
is unwarranted, that it is playing favorites with certain 
individuals, and they simply feel it is not something the 
United States should be doing. We have to be clear here, which 
is that we are not talking about a level playing field. We are 
talking about a playing field that is grossly tilted in favor 
of Aleksandr Lukashenka.
    What we are trying to do in pushing forward on this is to 
suggest that they need as much support as they can possibly 
get. They are not going to get it inside Belarus. They need 
help with training and with equipment and other things to at 
least give them a uniform to play in the game. We are not even 
talking about fair competition.
    And so my hope is that USAID would go along with this and 
recognize that such assistance is in fact important to go 
through. And it is not really for my organization. It is for 
organizations that do this work for a living that are very good 
at it, such as IRI and NDI.
    On the issue of sanctions, I speak from the experience of 
working with the Europeans very closely on this in 2006 and 
2007. We in the U.S. and Europe went forward with the visa ban 
and asset freeze. When it came to sanctions against state-owned 
enterprises, we did that unilaterally. The Europeans did not go 
along with it.
    But it is critical to remember when that sanction was 
imposed against Belneftekhim in November, 2007, within 2 months 
of that sanction a representative of Lukashenka came to the 
U.S. Embassy in Minsk and asked what the United States--not 
what Europe would do, what the United States would do--if they 
started releasing the political prisoners. And we explained we 
would ease the sanctions on Belneftekhim. We found their 
vulnerability with that sanction against state-owned 
enterprises. It took us too long, but we finally found it.
    And what we need to do now is recognize that a visa ban and 
asset freeze are nice to do, and they are important. I don't 
mean to minimize them. But they are nowhere near sufficient if 
we want to effect a change in the status of the political 
prisoners.
    But by these sanctions I don't want to imply that we are 
going to bring democracy to Belarus. That won't happen as long 
as Aleksandr Lukashenka sits in the President's chair in Minsk. 
But it will at least mitigate the deteriorating situation on 
the ground and the terrible plight that people like Andrei 
Sannikov Alexander Lebedko and Vladimir Neklyayev and others 
have experienced, people who are being tortured on a daily 
basis, the Belarus Free Theater people, who barely escaped with 
their lives.
    This is a leader who disappeared four critics and 
opposition figures in 1999 and 2000. This is not new behavior. 
This is typical Lukashenka behavior, and we have to understand 
that democracy, and democratic reform are not going come to the 
country as long as he is there. So regime behavior won't 
change, and I think we really do have to start talking about 
some form or another of regime change.
    Thank you.
    Mr. Smith. Yes.
    Mr. Rojansky. Mr. Chairman, I want to say, first, that I am 
in full agreement with Mr. Kramer as far as it concerns 
reversing the abuses that have taken place, getting the folks 
out of jail, providing the assistance to make sure that they 
have legal defense. I think the OSCE mission has to go back, 
and I think it has to have the capacity to have an 
investigation. Those are the minimum steps.
    I think in terms of what comes next when we look at the 
bigger picture, I have a slightly different view. Regarding 
democracy assistance and coordination, I think the dialogue has 
been there. What is missing I think is an understanding of what 
role Western assistance for democracy and opposition figures 
has played thus far.
    I agree that there certainly are cases in which very 
targeted punitive steps can get people who have already been 
put in prison out of prison. But as to whether democracy 
assistance from the West can create an opposition, a political 
opposition which is truly capable of taking on the mantle of 
governance, of democratic effective governance in Belarus in 
place of Lukashenka--because I am truly of the opinion that 
Lukashenka will not last in Belarus. But when that change 
comes, the question is will we have prepared the ground for a 
democratic opposition or democratic forces to truly take 
leadership in Belarus? And I think that is where our assistance 
has been uncoordinated and it has been ineffective.
    I will give you just a couple of examples of I think how 
that has taken place. One is that it is a mistake for us to 
anoint opposition leaders. We should not be in search of the 
next Vaclav Havel in Belarus, because I think we will only be 
hurting that person and those closest to that person. In a 
sense, we create a mutually damaging symbiosis, particularly I 
think when we take these people in in the West and we raise 
them up, we give them publicity. They don't appear to be of the 
people and understood by the people and understanding the 
people in Belarus.
    I will tell you from my personal experience people didn't 
know who most of those candidates on that list of 10 candidates 
were. They knew who Lukashenka was. He's a nationally known 
figure.
    I don't think we can know with certainty what the real 
percentages were in that vote, because it wasn't a real vote. 
It was rigged. But I would posit he is the one figure who has 
national name recognition.
    I think what we can do is we can help to build conditions 
where there is more communication and more access to 
information. These are kind of basic building blocks of 
democracy, as opposed to doing the type of sophisticated 
political party training and campaigning that can be helpful in 
other contexts but, in my view, not so much in Belarus. I think 
that addresses as well the question about the USAID policies 
and providing material support to opposition.
    With respect to additional sanctions, my feeling here is we 
have sanctions in place now that send a very strong message. 
And those sanctions have been reinstated, and they have been 
strengthened from the United States' part. From Europe's part, 
one of the reasons that Europe has influence on Belarus--and I 
think we have seen the limitations, with all due respect, to 
those achievements that the last administration had. I think we 
have seen the limitations of the effectiveness of American 
leverage, quite simply because we have very little relationship 
left with Belarus to exercise leverage on. The Europeans have a 
much, much larger relationship diplomatically, economically, 
and in every other way.
    I think it is sort of like the wedding ring problem, which 
is to say, if you have worn a wedding ring all your life and 
you've been faithful, if you take it off it sends a bad 
message. But if you haven't worn a wedding ring and nonetheless 
you have been faithful, you don't need to put that ring on in 
order to show your moral position.
    And I think the Europeans have made their position very 
clear through their statements. I don't think at this point 
that they need to ratchet up broad sanctions. They need to have 
targeted punishments, and they have done that with the visa ban 
list.
    The last comment I'll make, sir, is just, as I said, I 
think in the long term the disappearance of Lukashenka from the 
scene is going to happen; and the evidence for that is the 
instability and vulnerability and isolation that he faces right 
now. Over 50 percent of the GDP now is made up by foreign debt. 
He cannot sustain that situation. Around 15 percent of his 
annual budget is in deficit. He cannot sustain that situation. 
The Belarusian people are withdrawing their assets and 
transitioning them into foreign hard currency and sticking it 
under the mattress.
    This guy is going to go. And this is why I say it is in the 
interest of Moscow, of Brussels, of Washington, of the entire 
world community to ensure that that situation doesn't lead to 
instability and violence and bloodshed in the heart of Europe; 
and I think that is where we need to have a unified front and 
more coordination.
    Mr. Smith. To follow up on the state-owned enterprises and 
whether or not the EU ought to take a stronger sanctions 
approach toward them, do you agree with that?
    Mr. Rojansky. I would only agree to the extent that assets 
can be specifically traced to individuals who are tied--and I 
would say, for example, the visa ban list is an example of some 
of the individuals who are responsible for the abuses on 
December 19th and afterwards. But I would not do blanket 
cutting off of the economic relationship with Belarus because I 
think the EU--and we can't dictate their policy, but I think 
the EU will lose their ability to implement effective policy in 
a few years down the road.
    Mr. Kramer. Mr. Chairman, if I can, I absolutely think the 
EU needs to take these steps. I think each day that passes 
people in jail will suffer, possibly lose their lives. The EU 
does have more room to maneuver than the United States does. We 
don't have many more bullets in our revolver left. The EU has 
many. Belarus is quite dependent on trade with the EU, and the 
EU needs to use that as a point of leverage to exercise change 
in Lukashenka's behavior.
    We should also, I would say, listen to people like Iryna 
Bogdanova, who is the sister of Andrei Sannikov; Natalia 
Kalyada, who is one of the directors of the Belarus Free 
Theater; of Irina Krasovskaya, who is the widow of one of the 
disappeared; Eva Neklyayeva, the daughter of Vladimir 
Neklyayeva. All of these people are in support of sanctions 
against state-owned enterprises.
    So the concern that some people have that this would have 
an adverse effect on the population, these people don't see 
that argument. They also don't buy the argument that these 
steps would push Belarus and Lukashenka toward Russia. If that 
is all Lukashenka can do, I think his days are in fact 
numbered. Because the elite around him don't want to be puppets 
of the Russian Government and Belarus; the population does not 
want to be subservient to the Russian people.
    So I think this step is vitally important. I am disturbed 
by the divisions within the European Union over this issue. 
They need to show resolve, and they need to do it as soon as 
possible to end the suffering of people who are in jail.
    Thank you.
    Mr. Smith. If I could, to Mr. Rojansky, why wouldn't it be 
a good idea? I mean, sanctions can be imposed. They can be 
unimposed almost as quickly as they are imposed, although there 
is probably a turnaround time to get it up and running in terms 
of the facilitation of that trade to that company.
    But it seems to me that we do need a tourniquet when we are 
on the eve of, rather than at the end of, a number of show 
trials that will see increasingly harsher penalties, I would 
think, being imposed on the dissidents and people like Lebedko.
    Why wouldn't we want to really strongly admonish our 
European friends, to say enough is enough, put that tourniquet 
on? Because Lukashenka, in my opinion, feels that the world is 
so diverted from Belarus and from Minsk, Japan, all the 
occurrences in the Middle Eastern countries, all the chaos in 
the Sudan. And we do know that one of the arms suppliers to 
Sudan happens to be--to Khartoum, that is--happens to be 
Belarus. So they are fomenters of potentially truly 
destabilizing actions--hopefully, not a resumption of 
hostilities in southern Sudan. Big, key dates obviously are 
coming up, July 9th being the biggest in Sudan.
    So why wouldn't you want to do that, if you could further 
explain.
    Mr. Rojansky. Absolutely, sir.
    My objection would not be to very targeted and what you 
described as easy-to-switch-on and easy-to-switch-off measures. 
To the extent that we are dealing with those, that they are 
targeted at individuals who we know are criminally responsible 
for behavior since the 19th, I think that makes a lot of sense.
    What I am concerned about are blanket sanctions that do 
harm the people of Belarus. I think there is no question about 
that. They are in a very precarious situation today. People had 
savings prior to 2 years ago. Today, they do not have savings 
anymore. They have hard currency shoved under the mattress, and 
they are in a dangerous position. So we have to be careful not 
to worsen that situation.
    We also don't want to cut off our own access to being able 
to build some of the long-term building blocks of democracy 
that I was talking about. Because we don't want to see a 
scenario of potentially violent change, or even nonviolent 
change but which results in no real change in the system. It is 
entirely possible that you get rid of the individual 
personality of Aleksandr Lukashenka and you have another 
similar system in place with another so-called strong man.
    And then I guess my bigger concern about the leverage of 
sanctions logic is, if you look at recent history, there was a 
long period in which we used sanctions and I think we made some 
progress, but we imposed very, very harsh sanctions; and we 
didn't achieve the big picture goal. And the progress that we 
made--you asked what about reversing sanctions and turning them 
off. Well, the progress was turned off, too. So I think it is a 
two-way street.
    And if you look at the legacy of sanctions, for example, 
against Cuba, we did everything that we can; and now we don't 
have leverage left. And I am concerned that we end up with a 
situation where Belarus is Cuba and we and Europe have no 
leverage left and then we will wish that we had coordinated 
with Moscow, quite frankly, earlier than we did, because they 
will be the only ones with any leverage.
    Mr. Smith. Mr. Kramer.
    Mr. Kramer. Mr. Chairman, with all due respect to Matt, 
let's look at what worked. We imposed a visa ban and asset 
freeze in the summer of 2006 after the fraudulent election in 
2006 against Lukashenka. That didn't work. It took the sanction 
against Belneftekhim in November 2007, which 2 months later 
brought the regime to the U.S. Embassy to say how do we get you 
to ease off on these sanctions? That is the kind of sanction 
that is going to free the political prisoners; there is a 
proven track record.
    When I was in the State Department there was intelligence 
to back up this claim, and it seems to me that is the step that 
we need right now. A visa ban and asset freeze aren't 
irrelevant, but they are not going to get the job done. 
Lukashenka was anticipating this. What he was worried about 
before the EU took its decision on January 31st was that there 
would be sanctions against state-owned enterprises and that is 
why he freed two political prisoners on the eve of that 
decision.
    On people losing their savings, that wasn't due to 
sanctions. That is due to the ridiculous economic policies of 
Lukashenka and his government.
    On engagement, let's remember that after sanctions were 
suspended by the EU in October 2008--bad timing because it was 
1 month after a bad parliamentary election in September 2008--
October 2008 there was a full-throttle engagement effort, 
including offers of $3.5 billion by European foreign ministers 
that if the elections passed the free and fair test the EU 
would help Belarus.
    And what did Lukashenka do? On December 19th, he gave those 
who support engagement two middle fingers. That is what he 
thinks of engagement. So I think engagement has been tried. 
Engagement was the policy during this whole period leading up 
to when people have been losing their savings. It isn't because 
of sanctions. It is because of his leadership.
    Mr. Smith. Thank you.
    Let me just ask you a few final questions.
    First, with regards to the United Nations' response, to the 
best of your knowledge, has Ban Ki-moon said anything? I know 
that on March 14th, 45 U.N. states presented a statement on 
Belarus at the session of the Human Rights Council. The 
statement expressed deep concerns on human rights. Belarus 
responded by denying dialogue and making counteraccusations.
    But I am wondering, the Human Rights Council has been, 
unfortunately, a great disappointment following up to the 
egregiously flawed Human Rights Commission. But, that said, we 
are a member--the United States is a member, and many European 
countries also have delegations there. And I am wondering about 
an official investigation, tabling of a resolution that would 
very clearly and cogently single out Lukashenka and his 
henchmen for the harm they are doing every day.
    I am very worried about the loss of life as well as what 
the cruelty of torture does to a person's mind as well as body, 
PTSD. I have written four laws called the Torture Victims 
Relief Acts, and from my contacts with former victims of 
torture those scars are absolutely lifelong. Although some of 
the influences or consequences can be mitigated, they carry 
those scars. And I am so concerned, as I know both of you are, 
about the scars that are being inflicted as we meet at this 
hearing today. Especially with long, long sentences likely to 
be meted out in these show trials.
    So I am wondering if the U.N. can be--I asked our previous 
witness, Secretary Russell, if he would raise the issue of the 
Convention Against Torture and degrading and cruel treatment. 
They are signatories. ``They'' being the Belarusians. Why 
aren't the panel of experts and the mechanisms being invoked 
there? Because certainly, at a minimum, cruel and degrading 
treatment is being imposed and I do believe torture as well. I 
was just wondering, why is the U.N. seemingly silent on this?
    Mr. Kramer. To the best of my knowledge, Mr. Chairman, I am 
not aware of any statement from the Secretary General. I would 
be happy to stand corrected, but I don't believe he has.
    On the Human Rights Commission, I agree there should be 
every effort made to bring attention to the situation in 
Belarus. Of course, Russia is a member of the Human Rights 
Council and is likely to block any resolutions or efforts to 
launch a special investigation on torture or any other 
allegations against Belarus through that mechanism.
    Freedom House has efforts, and has outreach to different 
delegations in the Human Rights Council, and we will be happy 
to pursue those relationships we have and strongly urge this be 
taken up with the Human Rights Council.
    Mr. Rojansky. Mr. Chairman, I want to emphasize very 
clearly that I am not proposing engagement as a solution here. 
For that reason, I actually think that investigation and 
putting on the record the crimes of the Lukashenka regime, of 
Lukashenka personally and his associates, makes perfect sense; 
and the Human Rights Commission is exactly the right venue. I 
would recommend, also, Council of Europe, European Court of 
Human Rights, OSCE; and indeed I think this would be a case in 
which the ICC's complementarity doctrine could be applied.
    I think that the challenge, quite frankly, in practice with 
any of these things--which, again, is analogous to my concern 
about blanket sanctions and highly punitive measures, is what 
if they don't work. If we cannot go in and arrest Aleksandr 
Lukashenka, then all we have done is create a public record. 
And I think that is important, but I do think we have to think 
about the long term and things we can do that will make a 
difference.
    Mr. Smith. Thank you.
    Just on that, we are looking to mark up H.R. 515 very 
shortly. Any text ideas that you might have, we would greatly 
appreciate it.
    We do have an amendment in the nature of a substitute that 
has some refinements already, including calling on the 
International Ice Hockey Federation to suspend its plan to hold 
the 2014 International Hockey Championship in Minsk until the 
Government of Belarus releases all political prisoners. And it 
seems to me that that is an absolute bare minimum.
    I find it appalling, in a parallel way, that the Olympics 
occurred in China, despite the massive crackdown on dissidents. 
I remember I met Wei Jingsheng, the father of the Democracy 
Wall Movement in the early '90s in Beijing. He was let out in 
order to get Olympics 2000, which the Chinese Government did 
not get. And then they rearrested him and brought him close to 
death. And on a humanitarian only basis they allowed him to 
leave.
    But those kinds of tools, and you gentlemen have 
recommended them, I think they are excellent ideas. Secretary 
Kramer, you focused on that. I think it is a great idea. But 
any ideas you might have for how we can beef up our response to 
Lukashenka so that we don't miss any opportunity to engage and 
to hold him to account through sanctions and other ways.
    Is there anything else either of you would like to conclude 
with? And I thank you again for your extraordinary patience but 
also, more importantly, for your very wise counsel.
    Mr. Kramer. Mr. Chairman, thank you and thanks for coming 
back after the vote. I know it is a Friday afternoon, and so 
your patience with us is also very much appreciated.
    On the legislation, and I think this is already in there, 
but I would strongly urge that attention also be focused on the 
IMF so that international financial institution support not go 
forward. The U.S. should use its weight in the IMF to block any 
possible assistance and should strongly--in fact, including 
through the EBRD, in which we have a large share as well. We 
should exercise our influence in these international 
institutions to make sure that Lukashenka is not propped up. 
There is an aspect where I think the worse a situation is the 
weaker his grip on power becomes.
    I don't quite share the same concerns that the situation 
could spiral out of control. Having just been in Egypt last 
week, when I was there also in mid-December, it is a night-and-
day change. There are still many challenges in Egypt, a lot 
could go wrong in Egypt, but there is really for the first time 
in decades hope and optimism in large part because Hosni 
Mubarak is no longer in power. The same is true in Belarus. As 
long as Mubarak was in power in Egypt, democracy and freedom 
and human rights were not possible in Egypt. As long as 
Aleksandr Lukashenka is in Belarus, the same thing is true in 
that country as well.
    Mr. Smith. Thank you.
    Mr. Rojansky. Thank you again for the opportunity, sir.
    I think in this case there is much less disagreement than 
there appears to be. I think we are of the same mind. No 
question that Lukashenka requires targeted punishment to get 
him to reverse the most recent abuses.
    I think in the bigger picture the one thing that I would 
love to see in the legislation, if it is not there already, and 
I'll be sure to check this, is that we take advantage of a very 
new relationship that we have created with Moscow. Because I 
think at the end of the day--and here I would not argue that we 
are pushing Lukashenka toward Moscow, and if that is the 
problem, quite the opposite, that there is great power and 
influence in the hands of the Kremlin and that I think the 
Kremlin may be prepared or more prepared to use that. Because, 
if you think about it, our interests in avoiding a scenario in 
Belarus in which there is instability and chaos or there is a 
change which leads to damage in Russia's interest and the 
United States' interests I think are very much shared.
    So I think this is a case where we can have more of a 
united international front than we have had in the past, and 
that may in fact change this history that I'm concerned about 
where steps have been taken but that they haven't led to the 
change that we are looking for. So I would like to see that.
    Mr. Smith. Thank you for that counsel.
    And, just to conclude, this is the first in a series of 
hearings on Belarus. This will not be the last. We hope to go 
to markup soon in subcommittee, then bring it to the full 
committee, then to the floor.
    And I do believe the legislation--not just the debate 
itself--will also bring attention to Belarus. There are a 
number of members who knew what happened in December, but who 
are not sure where it went. It kind of fell off the front page 
and page 3 and everywhere else in our news media. That has to 
change, and I think we are going to try to bring much more 
light and scrutiny to it and press immediately for the release 
of all the political prisoners and the end of their unjust 
incarceration and mistreatment.
    And, again, you, both gentlemen, have provided enormous 
insights and the subcommittees are deeply grateful for that.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Material submitted for the record by the Honorable Donald M. Payne, a 
        Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: The previous article is not reprinted here in its entirety but 
is available in committee records.]

                                 <all>

</pre></body></html>
